No:
IN THE SUPREME COURT OF THE UNITED STATES
LAMAR JOHNSON,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner Lamar Johnson, through undersigned counsel and pursuant to
Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third-party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the I2--th day of February, 2021, which is
timely pursuant to the rules of this Court.

Dated: February17, , 2021

STEVEN G. KALAR
lic Defend

ROBIN PACKEL*
Assistant Federal Public Defender

* Counsel of Record
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500
robin_packel@fd.org

